               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Fiscal Year 2011 Postal Service
        Financial Statements Audit –
      St. Louis Information Technology
       and Accounting Service Center

                       Audit Report




                                              January 18, 2012

Report Number FT-AR-12-010
                                                                           January 18, 2012

                                               Fiscal Year 2011 Postal Service Financial
                                               Statements Audit – St. Louis Information
                                             Technology and Accounting Service Center

                                                             Report Number FT-AR-12-010



IMPACT ON:
Financial reporting at the St. Louis, MO         fairly stated in accordance with
Information Technology and Accounting            accounting principles generally
Service Center (IT/ASC) for fiscal year          accepted in the U.S.; general ledger
2011.                                            account balances conform with the
                                                 general classification of accounts on a
WHY THE OIG DID THE AUDIT:                       basis consistent with that of the previous
Our objectives were to determine                 year; and the Postal Service is in
whether:                                         compliance with laws and regulations
                                                 that relate to the St. Louis IT/ASC and
 Financial accounting policies and              have a direct and material effect on the
  procedures provide for an adequate             financial statements taken as a whole.
  internal control structure and comply          We did not propose any adjustments;
  with accounting principles generally           however, we identified issues regarding
  accepted in the U.S.                           inbound international mail, money order
                                                 adjustments, lease appraisals, lease
 Accounting transactions at the                 checklists, and highway transportation.
  St. Louis IT/ASC are fairly stated in
  accordance with accounting principles          WHAT THE OIG RECOMMENDED:
  generally accepted in the U.S.                 We recommended management
                                                 develop and implement an automated
 General ledger account balances                control to ensure lease appraisals and
  conform to the general classification of       capitalization checklists are completed.
  accounts on a basis consistent with
  that of the previous year.                     WHAT MANAGEMENT SAID:
                                                 Management agreed in part with the
 The Postal Service complies with laws          recommendation and, by March 2012,
  and regulations that have a direct and         plans to develop electronic Facilities
  material effect on the financial               Management System enhancements to
  statements taken as a whole.                   ensure compliance with policy and
                                                 provide training on these
WHAT THE OIG FOUND:                              enhancements.
Financial accounting policies and
procedures provide for an adequate               AUDITORS’ COMMENTS:
internal control structure and comply            We consider management’s comments
with accounting principles generally             responsive to our recommendation.
accepted in the U.S.; accounting
transactions at the St. Louis IT/ASC are         Link to review the entire report
January 18, 2012

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER

                          JANE E. BJORK
                          MANAGER, FACILITIES REAL ESTATE
                           AND ASSETS




FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial Accountability

SUBJECT:                  Audit Report – Fiscal Year 2011 Postal Service Financial
                          Statements Audit – St. Louis Information Technology and
                          Accounting Service Center (Report Number FT-AR-12-010)

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service’s St. Louis, MO Information Technology
and Accounting Service Center (IT/ASC) for the fiscal year ended September 30, 2011
(Project Number 11BM002FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Tom A. Samra
    Scott G. Davis
    Jack L. Meyer
    Jean D. Parris
    Steven R. Phelps
    Robin M. Stewart
    Corporate Audit and Response Management
Fiscal Year 2011 Postal Service Financial Statements Audit —                                                            FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Money Order Adjustment Control ....................................................................................... 2

Lease Appraisals and Capitalization Checklists Controls .................................................. 3

Highway Contract Route Service Order Modification and Adjustment Testing ................. 5

Progress on Prior Years’ Recommendations ..................................................................... 5

Recommendation ................................................................................................................ 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objectives, Scope, and Methodology ............................................................................. 8

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Monetary Impacts ......................................................................................... 11

Appendix C: Management’s Comments ........................................................................... 12
Fiscal Year 2011 Postal Service Financial Statements Audit –                                         FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center



Introduction

This report presents the results of our audit of the selected financial activities and
accounting records at the U.S. Postal Service St. Louis, MO Information Technology
and Accounting Service Center (IT/ASC) for the fiscal year (FY) ended
September 30, 2011 (Project Number 11BM002FT000). We conducted this audit in
support of the independent public accounting firm’s (IPA) overall audit opinions on the
Postal Service’s financial statements and internal controls over financial reporting. 1 This
audit addresses financial risk. See Appendix A for additional information about this
audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service’s financial statements. Also, the U.S. Congress enacted Sarbanes-Oxley
(SOX) legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. Section 404 of SOX requires management to state
its responsibility for establishing and maintaining an adequate internal control structure
and make an assertion on the effectiveness of the internal control structure over
financial reporting. The Postal Accountability and Enhancement Act of 2006 requires the
Postal Service to comply with Section 404 of SOX. The Board of Governors (Board)
contracted with the IPA to express opinions on the Postal Service’s financial statements
and internal controls over financial reporting.

Conclusion

During our audit of the St. Louis IT/ASC we noted:

   Financial accounting policies and procedures of the Postal Service provide for an
    adequate internal control structure 2 and comply with accounting principles generally
    accepted in the U.S.

   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
    account balances for assets, liabilities, equity, income, and expenses of the Postal
    Service are fairly stated in accordance with accounting principles generally accepted
    in the U.S.

   General ledger account balances conform with the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

   The Postal Service is in compliance with laws and regulations that relate to the
    St. Louis IT/ASC and that have a direct and material effect on the financial
    statements taken as a whole.
1
  The IPA maintains overall responsibility for testing and reviewing significant St. Louis IT/ASC accounts and
processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work with the IPA to ensure
adequate coverage.
2
  To ensure key controls are properly designed and operationally effective.
                                                             1
Fiscal Year 2011 Postal Service Financial Statements Audit —                                                    FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center



We did not propose any adjustments; however, throughout the year, we reviewed
internal controls over financial reporting and identified control deficiencies 3 regarding
inbound international mail, 4 money order adjustments, lease appraisals, and lease
checklists. In addition, we found that Financial Control and Support (FCS) 5 personnel
did not provide sufficient working paper evidence for the OIG to determine whether our
results were consistent for establishing accountability for highway contract modifications
and adjustments. Because these controls are considered key, 6 any error could impact
the IPA’s opinion on internal controls over financial reporting. Therefore, we brought
them to management’s attention at the time of discovery to assist them with their
responsibility for establishing and maintaining an adequate internal control structure
over financial reporting. The IPA relied on mitigating controls to obtain reasonable
assurance that internal controls over highway contract modifications and adjustments
were maintained.

The IPA identified additional information system control deficiencies affecting the
St. Louis IT/ASC that were not in the scope of our audit and are not contained in this
report. 7 The IPA informed management of these issues on November 1, 2011.

Money Order Adjustment Control

We reviewed 25 money order adjustments from the Money Order Database (MODB)
and found the key control over these adjustments 8 was in place and functioning to
ensure they were valid and accurate. 9 However, the control was not designed to ensure
the adjustment process was complete.

Specifically, we traced the adjustments to supporting documents and verified they were
valid and accurate. However, in three customer inquiry adjustments, General
Accounting Branch (GAB) personnel did not complete the adjustment process 10 which,

3
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct, misstatements on a timely
basis.
4
  We communicated issues related to inbound international mail to management through an interim report, J.T.
Weeker (Chicago) International Service Center – International Airmail Records Unit (Report Number FT-AR-12-002,
dated October 31, 2011). Accordingly, we did not propose any further recommendations in this report.
5
  FCS management review specialist.
6
  A key control is a control that, if it fails, there is at least a reasonable likelihood that a material error in the financial
statements would not be prevented or detected on a timely basis.
7
  These deficiencies included controls over independent user access, user access administration, logon credentials
and passwords, and segregation of duties over upload and approval functions.
8
  These items were sampled from October 1, 2010, through June 30, 2011. The sample included seven customer
inquiry adjustments, three adjustments for spoiled (voided) money orders, and 15 expense reversal adjustments
(adjustments to reverse incorrect charges to post offices, initiated by the Money Order Expense Request (Postal
Service (PS) Form 800-B process).
9
  Postal Service Control Number 128.20 states that, as needed, a designated employee reviews the validity and
accuracy of adjustments (expense reversals, customer inquiries, and spoiled/voided money orders) entered in the
MODB by comparing it to supporting documentation. The designated employee performing the review cannot be the
same person who keyed the adjustment into the MODB. The control is evidenced by signoff on the supporting
documentation (customer inquiries and spoiled/voided money orders) or approval noted within the approval letter list
spreadsheet (expense reversals).
10
   As noted, completeness was not part of the key control at the time of our review.


                                                               2
Fiscal Year 2011 Postal Service Financial Statements Audit —                                           FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


in these cases, included billing the Federal Reserve Bank (FRB), establishing a
receivable to a bank, or expensing the erroneous amount to a Post Office finance
number.

As a result, the Postal Service overpaid for two money orders by $580 when GAB
personnel did not (1) bill the FRB for a $480 money order it erroneously paid and (2)
establish a receivable to a bank to recover a $100 money order it erroneously
processed. In addition, the Postal Service understated the Money Order Liability
Account by $179 when GAB personnel did not expense the Post Office for a
$179 money order it issued in error.

We expanded our review of all customer inquiry adjustments processed from
October 1, 2010, through June 30, 2011 11 to determine whether additional
completeness errors occurred. We found that 60 of 215 (28 percent) customer inquiry
adjustments were not fully completed at the time they were originally processed. The
total amount related to these adjustments was $10,064, which included the three errors
already discussed. 12 See Appendix B for our monetary impact.

Until the OIG brought this to the Postal Service’s attention, management was not aware
of this design gap. As a result, management revised the key control to incorporate the
completeness element into the adjustment process. They also independently reviewed
and corrected any errors identified. The amended control should ensure customer
inquiry adjustments are valid, accurate, and complete. The IPA did not believe this issue
had a significant overall effect on the financial statements; therefore, we did not perform
any further control work in this area.

Since management took corrective action on this issue, we are not making a
recommendation at this time. We will continue to test this key control and follow-up on
management actions as part of our annual financial statements audit work.

Lease Appraisals and Capitalization Checklists Controls

We determined the key controls over lease appraisals and checklists were not effective.
Specifically, Facilities Service Office (FSO) personnel did not always obtain lease
appraisals and prepare lease capitalization checklists to evaluate facilities. Postal




11
   For audit purposes, we cut off our review at June 30, 2011, to allow for normal processing time of the adjustments.
12
   For comparison purposes, the total number and amount of customer inquiry adjustments are insignificant in relation
to the entire population of the money orders issued. For instance, in FY 2011, there were over 115 million domestic
money orders issued, valued at over $22 billion.


                                                          3
Fiscal Year 2011 Postal Service Financial Statements Audit —                                           FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


Service procedures 13 and key SOX controls 14 require appraisal values when the annual
rent of a facility exceeds $150,000 and the Postal Service occupies 100 percent of the
facility, or if the facility contains multiple tenants and the Postal Service occupies at
least 65 percent of it. The appraisal cannot be more than 2 years old prior to inception
of the lease for lease capitalization and not more than 1 year old 15 for facility disposals,
new leases, or lease renewals. A lease capitalization checklist is prepared and signed
once appraisal values are reviewed in a LOLA. Lease capitalization checklists are part
of the documentation required for lease acceptance by the contracting officer (CO).

We tested five leases and found one 16 valued at over $150,000 annually, where
Western FSO personnel did not have a lease appraisal completed; thus, appraisal
values were not entered into LOLA. In addition, the manager signed the lease
capitalization checklist 7 months after the lease went into effect. Western FSO
personnel could provide no explanation for the deficiency other than it was an oversight.
During our FY 2010 audit, we reported similar issues. 17

If lease data is incomplete in the eFMS and the documentation needed to make
decisions regarding the adequacy of leases is incorrect or not provided timely, rental
payments could exceed prevailing market rates. There is also a possibility that better
options are not being evaluated and the current lease is not the most optimal choice for
the Postal Service.

We brought this issue to management’s and the IPA’s attention, both of whom agreed
with the control deficiency. According to SOX personnel, they plan to remediate the
deficiency; however, no remediation has been scheduled to date. Due to the continued
deficiency, we did not perform further testing. See Appendix B for our monetary impact.




13
   Handbook RE-1, U.S. Postal Service Facilities Guide to Real Property Acquisitions and Related Services, originally
published in October 2006, has been updated through July 2010.
14
   Postal Service Control Number 302.021 - A review is performed for all appraisals. Appraisals greater than or equal
to $500,000 are sent to the contract appraiser to review to ensure appraisal requirements are met. The appraisal
must be accepted by reviewers prior to entry into the web-based electronic Facilities Management System (eFMS).
Reviewers complete the appraisal checklist, review documents, and sign-off manually as approved. Postal Service
Control Number 302.022 - FSO personnel prepare the lease information entries in the List of Lease Action (LOLA)
module in the eFMS, and compare to the appraisal source documentation. If no corrections are needed, the facilities
contract technician saves the entry in LOLA and completes the Lease Cap Checklist, which is signed by the FSO
manager or appropriate personnel as evidence of review.
15
   Handbook RE-1 states that appraisals used to support property values must be no older than 1 year prior to
execution of the lease or contract of sale. Should a lease execution or execution of a sale contract extend beyond the
12 months, an update to the appraisal will be obtained. Should the update change the appraised value relative to that
stated in the contract appraisal by more than 10 percent, a revised contract value will be negotiated, and new
approvals will be obtained.
16
   The lease is valued at $851,011 over the lease term. Specifically, annual graduated lease payments include
$163,529 for 2011, $166,800 for 2012, $170,135 for 2013, $173,538 for 2014, and $177,009 for 2015.
17
   Fiscal Year 2010 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-11-009, dated March 31, 2011).



                                                          4
Fiscal Year 2011 Postal Service Financial Statements Audit —                                         FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


Highway Contract Route Service Order Modification and Adjustment Testing

FCS personnel 18 did not provide sufficient working paper evidence for the OIG to
determine whether our results were consistent for establishing accountability for
highway contract modifications and adjustments. Specifically, FCS personnel did not
provide adequate evidence that the individuals signing the highway contract
modifications or adjustments were authorized COs or designated representatives.
Further, they did not provide evidence to support verification of contract information
prior to approval in the Transportation Contract Support System (TCSS).

The Postal Service SOX key control 19 requires a CO 20 to sign and date PS Form 7440,
Contract Route Service Order, to modify existing contracts or make payment
adjustments. In addition, the form is reviewed for accuracy of contract information prior
to the CO’s approval in TCSS. 21

According to FCS personnel, their testing relied on the effectiveness of automated
controls related to user access — which was not included in working paper evidence we
reviewed — to ensure an authorized individual signed PS Forms 7440; however, this is
not applicable since COs manually sign and date them. Because FCS personnel did not
provide adequate support, we could not confirm the forms were signed by an authorized
CO. Further, based on FCS personnel’s’ audit summary, we determined their control
test was not designed to ensure the forms were reviewed for accuracy or properly
approved in TCSS. Therefore, we could not determine whether our and FCS’s results
were consistent.

Based on discussions with the IPA, they relied on mitigating budgetary and cost
monitoring controls to obtain reasonable assurance that internal controls over highway
contract modifications and adjustments were maintained in all material respects. As a
result, we are not making any further recommendations and will re-evaluate this test as
part of our FY 2012 financial statements audit work.

Progress on Prior Years’ Recommendations

We followed up on recommendations concerning money order issues 22 where controls
over replacement checks, account reconciliations, and escheatment 23 needed
improvements. Management had taken corrective actions on four of seven


18
   FCS management review specialist.
19
   Postal Service Control Number 209.CA06.
20
   For audit purposes, we consider this to be either the CO or their designated representative.
21
   The SOX key control also requires the CO to review the PS Form 7440 for modifications to existing contracts or
payment adjustments for accuracy of contract rates, payment method, contract number, beginning/ending contract
term dates, city/state of mail service, order number, route order number, budget account number, finance number,
and name/address of vendor/supplier based on the contract specialist’s verification of modification or payment
adjustments. Once verified, the CO completes order-in-process for approval (electronic approval) in TCSS.
22
   Controls Over Money Orders (Report Number FT-AR-10-009, dated February 22, 2010).
23
   This is the monthly process of recording money orders outstanding for more than 2 years as miscellaneous
revenue and removing them from the Outstanding Money Order Liability Account in the subsidiary ledger.


                                                         5
Fiscal Year 2011 Postal Service Financial Statements Audit —                                       FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


recommendations during FY 2010. 24 In FY 2011, we confirmed that management took
corrective actions on the remaining recommendations. Specifically, management
continues to use the analytics tool monthly to identify additional money orders eligible
for escheatment. In addition, management reviews the unidentified difference in the
Outstanding Money Order Liability Account monthly as part of the account reconciliation
process.

Furthermore, the Postal Service implemented the new electronic money order inquiry
process in January 2011, which automated the process in the field and eliminated the
need for system edits. As a result, we closed all recommendations for money orders.

Recommendation

We recommend the manager, Facilities Real Estate and Assets:

1. Develop and implement an automated control within the electronic Facilities
   Management System to ensure lease appraisal and lease capitalizations checklists
   are completed as required.

Management’s Comments

Management agreed in part with the recommendation. They stated they would develop
enhancements preventing incomplete lease records from being saved in the eFMS to
ensure compliance with internal lease capitalization policy requirements. Further, Postal
Service Headquarters personnel will provide training to field personnel to ensure their
understanding of the enhancements created. The target date for implementing these
corrective actions is March 2, 2012.

Management disagreed with the monetary impact related to the lease capitalization
program as it does not represent an overpayment. They stated that facilities personnel
considered other factors during the lease negotiation process including the lack of
available competing space alternatives and operational needs. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. The intent of the
recommendation was to ensure lease actions are processed in accordance with Postal
Service policy. We believe corrective actions to enhance eFMS to ensure lease
information is complete will accomplish this.




24
  Fiscal Year 2010 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-11-009, dated March 31, 2011).



                                                        6
Fiscal Year 2011 Postal Service Financial Statements Audit —                    FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


Regarding monetary impact, we continue to believe the monetary impact is appropriate
as it is based on the failure to follow policy or required procedures, even though it does
not necessarily connote any real damage to the Postal Service.




                                                   7
Fiscal Year 2011 Postal Service Financial Statements Audit —                                            FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


                                 Appendix A: Additional Information

Background

The St. Louis IT/ASC is one of three Postal Service ASCs. 25 Its employees are
responsible for accounting functions related to money orders, real property,
transportation, international mail, and accounts payable. 26 Employees at this facility are
also responsible for processing financial and accountability data from field units.

We have issued separate financial statements audit reports for headquarters 27 and the
Eagan, MN IT/ASC 28 and will issue a separate report for the San Mateo, CA IT/ASC. In
addition to the overall opinions on the Postal Service’s financial statements and internal
controls over financial reporting, the Board’s IPA issued a separate report 29 on its
consideration of the Postal Service’s internal controls and its test of compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of that
report was to describe the scope of testing, not to provide an opinion on internal
controls over financial reporting or compliance. 30 The OIG issued a separate report for
the audit of the FY 2011 information system controls at the Eagan, San Mateo, and St.
Louis IT/ASCs; and the Raleigh Information Technology Service Center. 31

Objectives, Scope, and Methodology

The objectives of the audit were to determine whether: 32

    Financial accounting policies and procedures of the Postal Service provide for an
     adequate internal control structure 33 and comply with accounting principles generally
     accepted in the U.S.

    Accounting transactions at the St. Louis IT/ASC that impact the general ledger
     account balances for assets, liabilities, equity, income, and expenses of the Postal
     Service are fairly stated in accordance with accounting principles generally accepted
     in the U.S.



25
   Other ASCs are located in Eagan, MN and San Mateo, CA.
26
   Includes accounting for rents and leases, contract stations, vehicle hire, uniform allowance, indemnity claims, tort
claims, and electronic Travel (eTravel).
27
   Fiscal Year 2011 Postal Service Financial Statements Audit – Washington, D.C., Headquarters (Report Number
FT-AR-12-005, dated December 12, 2011).
28
   Fiscal Year 2011 Postal Service Financial Statements Audit – Eagan Information Technology and Accounting
Service Center (Report Number FT-AR-12-007, dated December 19, 2011).
29
   Report on Internal Control Over Financial Reporting and on Compliance and Other Matters Based on an Audit of
the Financial Statements Performed in Accordance with Government Auditing Standards, dated November 15, 2011.
30
   In addition to the IPA’s work, these reports encompass work the OIG performed at headquarters, the three
IT/ASCs, field sites, and the Raleigh, NC Information Technology Service Center.
31
   Fiscal Year 2011 Information Technology Internal Controls (Report Number IT-AR-12-003, dated January 9, 2012).
32
   The IPA maintains overall responsibility for testing and review of significant St. Louis IT/ASC accounts and
processes. The OIG coordinated audit work with the IPA to ensure adequate coverage.
33
   To ensure key controls are properly designed and operationally effective.


                                                           8
Fiscal Year 2011 Postal Service Financial Statements Audit —                 FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


   General ledger account balances conform to the general classification of accounts of
    the Postal Service on a basis consistent with that of the previous year.

   The Postal Service complies with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2010 through January 2012
in accordance with the standards of the Public Company Accounting Oversight Board
(PCAOB) (United States) and the standards applicable to financial audits contained in
Government Auditing Standards issued by the comptroller general of the U.S. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to limit audit risk to a low level that is, in our professional judgment,
appropriate for supporting the overall audit opinion on the financial statements. Those
standards also require considering the results of previous engagements and following
up on known significant findings and recommendations that directly relate to the
objectives of the audit. An audit also includes obtaining a sufficient understanding of
internal controls to plan the audit and to determine the nature, timing, and extent of
audit procedures to be performed. We believe the evidence obtained provides a
reasonable basis for our conclusion based on our audit objectives.

We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with PCAOB and
Government Auditing Standards may not detect a material misstatement. However, the
IPA and the OIG are responsible for ensuring that appropriate Postal Service officials
are aware of any significant deficiencies that come to our attention. We discussed our
conclusions with management on December 15, 2011 and included their comments
where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including:

   Accounting Data Mart.
   eFMS.
   eTravel System.
   Foreign Post Settlement System.
   Global Business System.
   Logistics Contract Management System.
   MODB.
   Money Order Inquiry System.
   Retek Merchandising System.
   TCSS.




                                                   9
       Fiscal Year 2011 Postal Service Financial Statements Audit —                         FT-AR-12-010
        St. Louis Information Technology and Accounting Service Center


       We assessed the reliability of these systems’ data by performing specific internal control
       and transaction tests, including tracing selected financial information to supporting
       source records. For example, we verified that payment authorizations supported
       payments recorded in the eFMS. We determined that the data were sufficiently reliable
       for the purposes of this report.

       Prior Audit Coverage

       We issued the following reports addressing selected financial activities and accounting
       records at the St. Louis IT/ASC. We discuss the control issues further in the “Progress
       on Prior Years’ Recommendations” section of this report.

                                                 Final
                             Report             Report         Monetary
    Report Title             Number              Date           Impact           Report Results
Controls over Money       FT-AR-10-009        2/22/2010         $367,550    Controls over money order
Orders                                                                      replacement checks,
                                                                            account reconciliations,
                                                                            and escheatment needed
                                                                            improvement.
                                                                            Management agreed with
                                                                            all seven
                                                                            recommendations and took
                                                                            corrective action on four
                                                                            during FY 2010. We closed
                                                                            the remaining three during
                                                                            FY 2011. None of the
                                                                            recommendations were
                                                                            significant.
Fiscal Year 2010          FT-AR-11-009        3/31/2011       $73,443,545   We did not propose any
Postal Service                                                              adjustments; however,
Financial Statements                                                        throughout the year, we
Audit – St. Louis                                                           reviewed internal controls
Information                                                                 over financial reporting and
Technology and                                                              identified control
Accounting Service                                                          deficiencies regarding
Center                                                                      international mail, money
                                                                            orders, transportation,
                                                                            eTravel, leases, journal
                                                                            voucher entries, and
                                                                            account reconciliations. As
                                                                            a result of our audit,
                                                                            management took
                                                                            corrective action; therefore,
                                                                            we did not make any
                                                                            recommendations.




                                                         10
Fiscal Year 2011 Postal Service Financial Statements Audit —                                           FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


                                    Appendix B: Monetary Impacts


                Finding                           Impact Category                           Amount
            Money Order                           Questioned Cost 34                         $10,064
            Adjustment
            Process Not
            Completed
            Lease Appraisal              Unsupported Questioned Cost 35                        851,011
            Not Completed
                  Total                                                                      $861,075




34
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth. May be
recoverable or unrecoverable and is usually a result of historical events.
35
   A weaker claim and a subset of questioned costs; claimed because of failure to follow policy or required
procedures, but does not necessarily connote any real damage to the Postal Service.


                                                         11
Fiscal Year 2011 Postal Service Financial Statements Audit —      FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center


                           Appendix C: Management’s Comments




                                                  12
Fiscal Year 2011 Postal Service Financial Statements Audit —      FT-AR-12-010
 St. Louis Information Technology and Accounting Service Center




                                                  13
